No.
IN THE
SUPREME COURT OF THE UNITED STATES
MELISSA CALABRESE, PETITIONER
vs.
STATE OF CALIFORNIA et. al„ RESPONDENTS

PROOF OF SERVICE
I, M. Kennedy, 2449 S. El Camino Real, San Clemente, CA do swear or declare that as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to
the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them sent Priority Mail and with postage prepaid for delivery within 3
calendar days. The name and address of those served are as follows:
Brobeck West Borges Rosa and Douville LLP
1301 Dove Street Suite 700
Newport Beach, CA 92660-2470
949-208-8070
I declare under penalty of perjury that the foregoing is true and correct.

Executed on Nov 27, 2020

